      Department of Homeland Security 



       The State of Minnesota’s Management of 

        State Homeland Security Program and 

        Urban Areas Security Initiative Grants 

             Awarded During Fiscal Years
                    2007 through 2009




OIG-12-14                                   November 2011 

                                                            Office of
                                                                   ofInspector
                                                                     Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                                             Homeland
                                                             Security
                     NOV 2 9 201'

                                          Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act 0/2002 (Public Law 107-296) by amendment
to the Inspector General Act 0/1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the State of Minnesota's management of State Homeland Security
Program and Urban Areas Security Initiatives grants awarded during fiscal years 2007
through 2009. We contracted with the independent public accounting firm Foxx &
Company to perform the audit. The contract required that Foxx & Company perform its
audit according to generally accepted government auditing standards. Foxx &
Company's report identifies seven reportable conditions where the State of Minnesota's
management of the grant funds could be improved, resulting in 15 recommendations
addressed to the Assistant Administrator, Grant Programs Directorate. Foxx & Company
is responsible for the attached auditor's report dated October 25,2011, and the
conclusions expressed in the report.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Anne L. Richards-\(\( r~-I2..QQ
                                      Assistant Inspector General for Audits
October 25, 2011

Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, S.W. Building 410
Washington, D.C. 20528

Dear Ms. Richards:

Foxx & Company performed an audit of the State of Minnesota’s management of the
Department of Homeland Security’s State Homeland Security Program and Urban Areas
Security Initiative grants for Fiscal Years 2007 through 2009. The audit was performed
in accordance with our Task Order No. TPD-FIG-BPA-07-0007, Order No. 10 dated
September 27, 2010. This report presents the results of the audit and includes
recommendations to help improve the State’s management of the audited State Homeland
Security Program and Urban Areas Security Initiative grants.

Our audit was conducted in accordance with applicable Government Auditing Standards,
2007 revision. The audit was a performance audit as defined by Chapter 1 of the
Standards and included a review and report on program activities with a compliance
element. Although the audit report comments on costs claimed by the State, we did not
perform a financial audit, the purpose of which would be to render an opinion on the
State of Minnesota’s financial statements or the funds claimed in the Financial Status
Reports submitted to the Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of any further assistance, please call me at (513) 639-8843.

Sincerely,




Foxx & Company
Martin W. O’Neill
Partner
Table of Contents/Abbreviations
Executive Summary ........................................................................................................... 1
 


Background ........................................................................................................................ 2
 


Results of Audit ................................................................................................................. 2
 


     State Strategy Updates ............................................................................................... 3
 

     Recommendations ....................................................................................................... 8
 

     Management Comments and Auditors’ Analysis ....................................................... 8
 


     Monitoring of Subgrantees ......................................................................................... 9
 

     Recommendations ..................................................................................................... 11
 

     Management Comments and Auditors’ Analysis ..................................................... 12
 


     Property Management Controls and Accountability.................................................. 13
 

     Recommendations ..................................................................................................... 15
 

     Management Comments and Auditors’ Analysis ..................................................... 15
 


     Grant Expenditure Reviews ...................................................................................... 16
 

     Recommendations ..................................................................................................... 17
 

     Management Comments and Auditors’ Analysis ..................................................... 17
 


     Financial Status and Progress Reporting ................................................................... 17
 

     Recommendations ..................................................................................................... 20
 

     Management Comments and Auditors’ Analysis ..................................................... 20
 


     Fusion Center Sustainability ..................................................................................... 21
 

     Recommendation ...................................................................................................... 22
 

     Management Comments and Auditors’ Analysis ..................................................... 23
 


     Internal Controls Over Financial Operations ............................................................ 24
 

     Recommendations ..................................................................................................... 26
 

     Management Comments and Auditors’ Analysis ..................................................... 26
 


Appendices
     Appendix A:           Purpose, Scope, and Methodology ....................................................                 28
 

     Appendix B:           Management Comments to the Draft Report ....................................                         33
 

     Appendix C:           Homeland Security Grant Program Background ..............................                            45
 

     Appendix D:           Minnesota State Administrative Agency Organization Chart ..........                                  46
 

     Appendix E:           Report Distribution ...........................................................................      47
 


Abbreviations
     DHS                   Department of Homeland Security
 

     FEMA                  Federal Emergency Management Agency
 

     FY                    fiscal year
 

     OIG                   Office of Inspector General
 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                      Public Law 110-53, Implementing Recommendations of the 9/11
                      Commission Act of 2007, requires the Department of Homeland
                      Security, Office of Inspector General, to audit individual states’
                      management of State Homeland Security Program and Urban
                      Areas Security Initiative grants. This report responds to the
                      reporting requirement for the State of Minnesota.

                      The objectives of the audit were to determine if the State of
                      Minnesota distributed and spent State Homeland Security Program
                      and Urban Areas Security Initiative grant funds (1) effectively and
                      efficiently and (2) in compliance with applicable federal laws and
                      regulations. We were to also address the extent to which grant
                      funds enhanced the State of Minnesota’s ability to prevent, prepare
                      for, protect against, and respond to natural disasters, acts of
                      terrorism, and other man-made disasters. The audit included a
                      review of approximately $54.7 million in State Homeland Security
                      Program and Urban Areas Security Initiative grants awarded to the
                      State of Minnesota during fiscal years 2007 through 2009.

                      Generally, the State of Minnesota did an efficient and effective job
                      of administering program requirements in accordance with grant
                      guidance and regulations. The State of Minnesota’s plans linked
                      funding to all-hazard capabilities and to goals that were established
                      based on risk assessments. However, we identified seven areas for
                      improving grants management: state strategy updates, subgrantee
                      monitoring, property management, grant expenditure reviews,
                      financial status and progress reporting, fusion center sustainability,
                      and internal controls over financial operations.

                      Our 15 recommendations call for the Federal Emergency
                      Management Agency to initiate improvements which, if
                      implemented, should help strengthen program management,
                      performance, and oversight. Written comments to the draft report
                      are incorporated as appropriate and included in their entirety in
                      appendix B.




          The State of Minnesota’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                              Page 1 

Background
                     The Homeland Security Grant Program provides federal funding to
                     help state and local agencies enhance capabilities to prevent,
                     protect against, respond to, and recover from terrorist attacks,
                     major disasters, and other emergencies.

                     The State of Minnesota (State) received $62 million in Homeland
                     Security Grant Program funds over the course of fiscal years (FYs)
                     2007, 2008, and 2009. This included $54.7 million in State
                     Homeland Security Program and Urban Areas Security Initiative
                     grants. Appendix A provides details on the purpose, scope, and
                     methodology for this audit, and appendix C provides background
                     on the Homeland Security Grant Program.

                     The Governor of the State of Minnesota designated the Department
                     of Public Safety’s Division of Homeland Security and Emergency
                     Management as the State Administrative Agency, the entity
                     responsible to administer the Homeland Security Grant Program.
                     The State Administrative Agency is responsible for managing the
                     grant programs in accordance with established federal guidelines
                     and allocating funds to local, regional, and other Minnesota
                     government agencies. The State Administrative Agency
                     organization is depicted in appendix D.

                     Within Minnesota, the State Administrative Agency subawarded
                     Homeland Security Grant Program funds to 50 subgrantees
                     throughout the State over the 3-year period.

Results of Audit
     State Grants Management Practices Were Generally Effective,
     But Require Some Improvements
            Generally, the State did an efficient and effective job of administering
            program requirements in accordance with grant guidance and regulations.
            The State’s plans linked funding to all-hazard capabilities and to goals that
            were established based on risk assessments. However, improvements
            were needed to enhance Minnesota’s management of the grants, including:

              �    State strategy updates,
              �    Monitoring of subgrantees,
              �    Property management controls and accountability,
              �    Grant expenditure reviews,

         The State of Minnesota’s Management of State Homeland Security Program and 

      Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                             Page 2 

                      �	 Financial status and progress reporting,
                      �	 Fusion center sustainability, and
                      �	 Internal controls over financial operations.

                    Our 15 recommendations call for the Federal Emergency Management
                    Agency (FEMA) to initiate improvements which, if implemented, should
                    help strengthen program management, performance, and oversight. These
                    improvements will enhance the effectiveness of the State’s overall use of
                    the grant funds to improve preparedness and response capabilities.

           State Strategy Updates
                    The State of Minnesota’s Homeland Security Strategy (Strategy) was not
                    up to date. The Strategy was last updated January 18, 2008, and addressed
                    the four mission areas and seven 1 national priorities as required. However,
                    the Strategy was limited in its effectiveness because:

                        �	 The Strategy referred to a comprehensive risk, capabilities, and
                           needs assessment completed in October 2003. The Strategy stated
                           an “updated assessment will be accomplished during calendar year
                           2006 with guidance from the Office for Domestic Preparedness,”
                           but an updated assessment was not performed;
                        �	 The Strategy lacked measurable goals and objectives; and
                        �	 The process to collect and report performance data in the Strategy
                           required updating and refinement.

                    As a result, the State’s strategy was not based on current capabilities and
                    needs, did not have measurable goals and objectives, and did not permit
                    the State to use measured progress toward goals and objectives when
                    making funding and management decisions. Accordingly, the State did
                    not have a basis to evaluate the effect of grant expenditures on its
                    preparedness and response capabilities.

                    FEMA’s State and Urban Area Homeland Security Strategy, Guidance on
                    Aligning Strategies with the National Preparedness Goal (Strategy
                    Guidance), dated July 22, 2005, states that the primary determinants of an
                    overall successful strategy are the quality of the goals and performance
                    against those goals. The Strategy Guidance stated that the State
                    Administrative Agency and Urban Area Working Group should assess the
                    strategy’s objectives to determine whether the measures are meaningful,
                    that the measurement methodology is sound, and the measures can be
                    verified with reliable data.


1
    This number was increased to eight for the FY 2010 and later grants.

                The State of Minnesota’s Management of State Homeland Security Program and 

             Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                                    Page 3 

      The Strategy Guidance also stated that objectives should be:

           �	 Specific, detailed, particular and focused – helping to identify what
              is to be achieved and accomplished;
           �	 Measurable – quantifiable, providing a standard for comparison,
              and identifying a specific achievable result;
           �	 Achievable – the objective is not beyond a State, region, 

              jurisdiction or locality’s ability;

           �	 Results-oriented – identifies a specific outcome; and
           �	 Time-limited – a target date exists to identify when the objective
              will be achieved.

      The Strategy Guidance added that objectives, which have corresponding
      implementation steps, should be guided by solution areas – Planning,
      Organization, Equipment, Training, and Exercises – that support
      achievement of the goal and reduce shortfalls in capabilities.
      Implementation steps provide a road map to the accomplishment of the
      goals and objectives. Once an objective has been established,
      implementation steps should be constructed that will provide guidance to
      the State or Urban Area on how the objective will be achieved.

      With respect to updating state strategies, the Strategy Guidance recognized
      the value of each state having an ongoing process of review and
      refinement as new lessons are learned, new priorities are realized, and new
      homeland security guidance is issued. The Strategy Guidance stated that
      updated State and Urban Area Homeland Security Strategies will then
      provide a context for performing the strategic exercise of asking “How are
      we organized?” and “How are we managing our homeland security
      programs?”

               Strategy Needs to be Updated With a Comprehensive Risk,
               Capabilities, and Needs Assessment

               The State had not updated its risk, capabilities, and needs
               assessments since 2003. Although the state strategy was updated
               in January 2008, the strategy was not complete because the State
               Administrative Agency did not update the needs assessment in
               2006 as intended. As a result, the State strategy and justifications
               for FEMA Homeland Security Grant funds for FYs 2007, 2008,
               and 2009 were based upon outdated strategy and assessments that
               did not consider such factors as new risks, needs assessments, and
               capability improvements achieved with previous years’ grant
               monies.



   The State of Minnesota’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 4
               The 2003 State Strategy was developed from a comprehensive risk,
               capabilities, and needs assessment completed by designated state
               jurisdictions. It was based on the National Response Plan and
               integrated with the Minnesota National Incident Management
               System. The assessment was completed in October 2003 with
               guidance from FEMA. The results of the assessment helped to
               identify gaps between the current and desired level of equipment,
               training, and exercises at the local and state levels.

               The 2003 State Strategy stated that an updated assessment would
               be accomplished during calendar year 2006 with guidance from
               FEMA. However, state officials said that the updated assessment
               was never completed. Instead, the State relied on the input from
               23 working groups consisting of subject matter experts that came
               together each year during the grant process to review potential
               projects for homeland security funding. These working groups
               reviewed and scored proposed projects and made
               recommendations to the State’s Senior Advisory Council. The
               Council reviewed and approved projects which became the
               investment justifications submitted by the State as part of its yearly
               application to FEMA for grant funds.

               While the members of the Senior Advisory Council represent all
               first responder disciplines, as well as the state officials responsible
               for the administration of federal preparedness grants, the activities
               of the working group were not used to update the State’s strategy
               because the group was not tasked to do this. Without an updated
               State strategy there was no assurance that the projects for which
               FEMA funding was being requested would lead to the most
               effective result for improving the State’s capabilities.

               Strategy Lacks Measurable Goals and Objectives

               The State Strategy contained 14 broad based goals which
               supported the 4 national mission areas and 7 national priorities.
               The Strategy also had 74 objectives with a total of 340
               implementation steps to support the 14 broad based goals.
               However, the objectives and implementation steps were not
               specific, measurable or results oriented. To illustrate, 148 of the
               340 implementation steps had no specific dates for completing the
               implementation step or how often the step would be performed.
               Other time frames cited in the Strategy were for years prior to the
               effective date of the Strategy and reflected status conditions that
               likewise were years old. The following are examples of
               shortcomings found in the Strategy:

   The State of Minnesota’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 5
                               Table 1: Shortcomings in State Strategy
Goal                              Objective                          Shortcoming
To develop and enhance the        The State of Minnesota will        The objective and
planning and analysis             develop a statewide plan for       corresponding implementation
capabilities at all levels of     the evacuation of citizens in      steps do not include:
government within the state       preparation for or in response     � Time frames for completion
of Minnesota to prevent,          to terrorism, a major disaster,       of the objective.
respond to, and recover from      or other emergencies.
terrorism, major disaster, and
other emergencies.

The State of Minnesota will       Based on best practices,           The objective and
enhance a regional capacity       establish baseline for             corresponding implementation
to prevent, prepare for,          equipment and training for         steps do not include:
respond to, recover from, and     regional Emergency                 � Specific or measurable
mitigate a Chemical,              Operations Centers.                   language;
Biological, Radiological,         Encourage development of           � Time frames for completion
Nuclear Event.                    Emergency Operations                  of the objective.
                                  Centers that promote multi-
                                  agency communications and
                                  collaboration during an event.

The State of Minnesota, in        Enhance Minnesota’s ability     The objective and
cooperation with law              to prevent and detect terrorism corresponding implementation
enforcement agencies              events.                         steps do not include:
throughout the state, will                                        � Specific or measurable
develop and maintain an                                              language;
efficient and expeditious                                         � Current or specific
sharing of information and                                           timeframes for completion of
intelligence that could                                              the objective.
prevent possible terrorist
attacks.

Implement a strategy for          Critical Infrastructure Security   The objective and
homeland cyber-security           and Management Phases - To         corresponding implementation
directed toward the safeguard     maintain the level of security     steps do not include:
and protection of sensitive       across the critical                � Specific or measurable
and private information and       infrastructure over time.             language;
the continuity of the State of    Activities will shift from         � Current or specific
Minnesota’s extended critical     design, build, and statewide          timeframes for completion of
infrastructure and operations.    project coordination to               the objective.
                                  ongoing support and program
                                  facilitation.

Enhance the direct and            Enhance mutual aid capacity        The objective and
immediate response                in Minnesota.                      corresponding implementation
capability of both local and                                         steps do not include:
state response agencies.                                             � Specific or measurable
                                                                        language;
                                                                     � Current timeframes for
                                                                        completion of the objective.




   The State of Minnesota’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                          Page 6
 

               In other instances, the Strategy included steps with no completion
               date. For example, one objective stated:

                   “Create and maintain CriMNet, a statewide framework of
                   people, processes, data standards, and technology focused on
                   providing accurate and comprehensive data to the criminal
                   justice community to prevent terrorist attacks.”

               An implementation step for this objective states:

                   “Ensure compliance with data privacy laws and court rules of
                   access, about 15% complete.”

               The status does not reflect what date the 15% was achieved or was
               projected to be achieved.

               In addition to steps included in the revised January 2008 strategy
               that did not have completion dates, some steps referred to dates
               that had passed. Seventeen of the 340 implementation steps had
               completion dates in 2004. However, there was no status reflected
               to show whether the steps had been completed or whether the
               information has not been collected to update the status.

               Process to Collect and Analyze Performance Data Needs
               Improvement

               The goals and objectives in the Strategy did not include
               performance measures that enabled the State to track progress
               made in achieving the goals. In addition, the State did not have an
               adequate process to collect, measure, and analyze performance
               data related to the accomplishment of the goals and objectives
               outlined in the Strategy.

               The State relied on the activities of working groups to informally
               update the training, exercise, and equipment needs for their
               disciplines in local jurisdictions. While the working groups were
               charged by the State Administrative Agency with the responsibility
               to review all potential projects for inclusion into the investment
               justifications, the working groups did not participate in updating
               the plan or assessing progress toward meeting goals and objectives.

               According to the 2009 grant application guidance furnished to
               subgrantees by the State Administrative Agency, quarterly
               progress reports containing a summary of actual accomplishments
               of the grant projects in a narrative format were required. These

   The State of Minnesota’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 7
               progress reports were due 30 days after the end of each calendar
               year quarter. However, our review of selected progress reports
               showed that the reports were not prepared or lacked sufficient data
               to track progress, and were generally not sufficient to track
               progress in accomplishing goals and objectives. State
               Administrative Agency officials attributed the lack of progress
               reporting to the need for metrics to measure accomplishments.
               The State Administrative Agency officials said that the lack of
               metrics was partially due to a lack of guidance from FEMA.

               Without measurable goals and objectives, performance
               measurements, and a mechanism to collect objective, results-
               oriented data from local jurisdictions and first responders, the State
               did not have a basis to evaluate the effect of grant expenditures on
               its preparedness and response capabilities. Also, the State was
               unable to determine progress toward goals and objectives when
               making funding and management decisions.

      Recommendations
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Minnesota Department of Public Safety
               and its Division of Homeland Security and Emergency
               Management to:

               Recommendation #1: Formalize a policy and document
               procedures for periodically updating the State Strategy based upon
               current risk, capabilities, and needs assessments.

               Recommendation #2: Incorporate goals and objectives in the
               updated State Strategies that are specific, measurable, achievable,
               results-oriented, and time-limited.

               Recommendation #3: Develop performance measures and collect
               and analyze performance data from subgrantees to measure
               progress towards achieving goals and objectives.

      Management Comments and Auditors’ Analysis
               FEMA officials concurred with recommendation 2 and with the
               intent of recommendations 1 and 3. The officials concurred with
               the intent to increase accountability in meeting the goals and
               objectives of the State Homeland Security Strategy for
               recommendations 1 and 3 and will work to continue to strengthen
               the language of the guidance provided to the States. FEMA

   The State of Minnesota’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 8
                officials also said they would recommend that the State develop
                performance measures and collect and analyze performance data
                from subgrantees to measure progress towards achieving goals and
                objectives. However, FEMA stated that it cannot legally require
                the State to take the actions included in recommendations 1 and 3
                at this time.

                In regard to recommendation 2, FEMA officials said that FEMA
                had approved Minnesota’s revised Homeland Security Strategy of
                June 2011. It is FEMA’s opinion that Minnesota’s revised goals
                and objectives meet the federal requirements and will serve the
                state well in its homeland security efforts going forward. FEMA
                will also strengthen the language in the guidance regarding
                progress measurement. FEMA concluded that recommendation 2
                had been addressed and requested that the recommendation be
                closed. However, because the State is proposing to update its
                strategy in response to the recommendation, the recommendation
                will remain open.

                State of Minnesota officials also agreed with recommendations 1
                through 3. The officials said they will update the State’s strategy
                to include a policy statement adopting a 2-year planning cycle for
                reviewing and revising the strategy. The officials said the strategy
                update will include goals and objectives that are specific,
                measurable, achievable, results-oriented, and time-limited. Key
                performance measures and indicators will also be developed. The
                State estimated that the strategy update will be completed by
                December 31, 2011.

                If properly implemented, the corrective actions proposed by
                FEMA and the State will resolve the condition identified during
                the audit. The recommendations are considered resolved and will
                remain open until such time that corrective actions have been
                implemented.

Monitoring of Subgrantees
       The Minnesota State Administrative Agency did not adequately monitor
       subgrantee activities for the FY 2007, 2008, and 2009 Department of
       Homeland Security (DHS) grants. The State Administrative Agency
       conducted only limited monitoring and did not have subgrantee program
       performance monitoring policies and procedures in place until
       December 31, 2009. As a result, the State did not have adequate
       information to assess whether or not the subgrantees were efficiently and


    The State of Minnesota’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                        Page 9
      effectively using grant funds to accomplish program objectives, or that the
      grants were managed in accordance with federal requirements.

      Code of Federal Regulations Title 44 §13.40, Monitoring and reporting
      program performance, establishes requirements for monitoring grant
      program performance. The regulations require grantees to (1) provide
      day-to-day management of all grants and subgrant supported activities and
      (2) assure that subgrantees comply with applicable federal requirements
      and achieve program performance goals. The regulations also specify that
      the grantees’ monitoring programs cover each function, program, or
      activity, and require subgrantees to adhere to the same performance
      monitoring and reporting standards as required of grantees.

      Office of Management and Budget Circular A-133, Part 3-M, Subrecipient
      Monitoring, also includes grantee monitoring requirements. Part 3-M
      states that grantees are responsible for monitoring subgrantees’ use of
      federal awards through reporting, site visits, regular contact, or other
      means to provide reasonable assurance that the subgrantees administer
      federal awards in compliance with laws, regulations, and the provisions of
      contracts or grant agreements, and that performance goals are achieved.

      The State Administrative Agency developed a protocol for monitoring
      subgrantees, which went into effect on December 31, 2009. This protocol
      established that on-site visits to subgrantees would be conducted for
      subgrantees selected by State Administrative Agency Program and Grants
      staff. However, the protocol did not identify how the subgrantees would
      be selected, how many subgrantees would be visited each year, or when
      these visits would commence.

      State Administrative Agency officials said that the subgrantee monitoring
      consisted of document reviews conducted during the quarterly financial
      status report reviews, interactions with subgrantee representatives during
      periodic working group meetings, and occasional subgrantee visits or
      telephone calls. However, an official from only one of the 22 subgrantees
      we visited said that State Administrative Agency officials had made an on-
      site visit. Also, the State Administrative Agency did not prepare a written
      report to document the visit. Subgrantee and State Administrative Agency
      officials agreed that program performance monitoring needed to be
      improved. In this regard, we believe the development of a checklist for
      use by monitors during evaluations of subgrantee program performance
      would help to ensure consistency in the scope and methodology of the
      program evaluations from subgrantee to subgrantee.

      A FEMA Region V site monitoring visit to the State Administrative
      Agency held July 19, 2010 through July 23, 2010 found that the office was

   The State of Minnesota’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 10
      “slow in implementing the subgrantee monitoring program” and
      recommended that the State Administrative Agency “Energize and fully
      implement their subgrantee monitoring program.” A State Administrative
      Agency official said that the lack of staffing and financial resources has
      limited the ability to effectively monitor subgrantee program performance.
      At the time of our audit, the Grants Program section had four staff
      members who were responsible for reviewing reimbursement requests
      from subgrantees for Homeland Security Grant Program funds. Also, an
      additional State Administrative Agency staff member was responsible for
      overseeing the Urban Areas Security Initiative activities. The Urban
      Areas Security Initiative point of contact, who has been in the position for
      the past 3 years, said that she has not had time to make on-site visits to the
      respective Urban Areas Security Initiative subgrantees.

      During the week of March 28, 2011, the State Administrative Agency
      hired an individual to conduct on-site monitoring visits. The creation of
      this position was an important accomplishment in the State’s efforts to
      comply with federal monitoring requirements. However, the majority of
      the grant expenditures for FY 2007 had already been made and
      expenditures for the FYs 2008 and 2009 were well underway by
      March 2011. With the number of subgrantees across the State, we
      question whether one individual can adequately provide sufficient
      coverage of all grant award recipients state-wide.

      Implementing a subgrantee monitoring program that includes periodic
      on-site visits would provide the State Administrative Agency with
      first-hand knowledge of subgrantees’ use of State Homeland Security
      Program and Urban Areas Security Initiative grant funds, and whether the
      subgrantees were accomplishing program objectives. On-site visits would
      also provide the State Administrative Agency with reasonable assurance
      that the subgrantees were managing the FY 2007 through 2009 funds in
      accordance with federal requirements. For example, the issues we noted
      on inadequate property management controls could have been discovered
      and resolved had the State Administrative Agency performed subgrantee
      on-site monitoring visits.

      Recommendations
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Minnesota Department of Public Safety
               and its Division of Homeland Security and Emergency
               Management to:

               Recommendation #4: Establish a policy and monitoring
               procedures that include the frequency of on-site visits,

   The State of Minnesota’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 11
               methodology for selecting subgrantees to visit, and a protocol for
               reviewing financial and performance related activities during the
               visits.

               Recommendation #5: Develop a checklist for evaluating
               subgrantee compliance with federal grant requirements.

               Recommendation #6: Identify criteria and methodology for
               assessing subgrantee efficiency and effectiveness in accomplishing
               grant program objectives during monitoring visits.

      Management Comments and Auditors’ Analysis
               FEMA officials concurred with recommendations 4 and 5, and
               with the intent of recommendation 6. With regard to
               recommendations 4 and 5, FEMA officials recently recommended
               that the State establish a more cohesive plan aggressively requiring
               timely on-site visits. FEMA added that it monitors all states to
               ensure compliance with grant guidance and all Federal regulations
               and legislation. FEMA is requiring the State to submit the
               monitoring plan to the FEMA Program Analyst within 90 days of
               the receipt of the final report. FEMA is also requiring the State to
               submit to FEMA documentation describing the method by which
               subgrantees are informed about their obligations to comply with a
               subrecipient grant award. FEMA requested that recommendations
               4 and 5 be resolved and open pending implementation of the stated
               corrective action.

               For recommendation 6, FEMA officials said they concurred with
               the intent of the recommendation but cannot legally require the
               State to structure its monitoring activities to achieve a particular
               outcome. However, FEMA will request the State Administrative
               Agency to review and make improvements to its current
               subgrantee monitoring program within 180 days. FEMA requested
               that this action be closed.

               State of Minnesota officials agreed with recommendations 4
               through 6. The officials said a document was being developed that
               will provide guidance for the monitoring process. The document
               will include:

                    �	 A policy and process for determining the frequency and
                       recipients of on-site visits, and
                    �	 A checklist that will be used to ensure that subgrantees are
                       in compliance with federal requirements.

   The State of Minnesota’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 12
                The officials also said that a process was being established for
                measuring efficiency and effectiveness of subgrantees. The
                process will include a comparison of projected timelines and
                activity to date, goals to outcomes, and open dialogue with
                subgrantee representatives. Once developed, the process will be
                included in the monitoring policy and procedure document. The
                estimated completion date for completion of the new policies,
                procedures, and the checklist is December 1, 2011.

                If properly implemented, the corrective actions proposed by
                FEMA and the State will resolve the condition identified during
                the audit. The recommendations are considered resolved and will
                remain open until such time that corrective actions have been
                implemented.

Property Management Controls and Accountability
       The Minnesota State Administrative Agency did not enforce the
       requirement that subgrantees establish and maintain effective control and
       accountability systems to:

            �	 Safeguard property procured with Homeland Security Grant
               Program funds, or
            �	 Provide assurances that the property was used solely for authorized
               purposes.

       As a result, the State Administrative Agency and subgrantees did not have
       reasonable assurance that property purchased with federal grant funds was
       being used as intended and adequately safeguarded to prevent loss,
       damage, or theft.

       Code of Federal Regulations Title 44 §13.3, Definitions, defines
       equipment as tangible, non-expendable, personal property having a useful
       life of more than 1 year and an acquisition cost of $5,000 or more per unit.
       Code of Federal Regulations Title 44 §13.32, Equipment, requires that
       property records be maintained that include the property’s cost,
       description, identification number, location, use, condition and ultimate
       disposition. Equipment and supplies are considered personal property.
       Code of Federal Regulations Title 44 §13.32(d)(2), also requires that:

            �	 A control system be developed to ensure adequate safeguards to
               prevent loss, damage, or theft of equipment and other personal
               property procured with federal funds, and
            �	 A physical inventory of the property be taken and the results
               reconciled with the property records at least once every 2 years.

    The State of Minnesota’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                       Page 13
      In addition, Code of Federal Regulations Title 44 §13.20, Standards for
      financial management systems, requires that effective control and
      accountability be maintained for all personal property procured with
      federal funds. Sensitive equipment that is portable such as lap-top
      computers and handheld radios should be safeguarded even though the
      cost of the equipment might be less than the $5,000.

      Grantees and subgrantees must adequately safeguard all such property and
      must assure that it is used solely for authorized purposes. The federal
      regulations covering property management controls are included by
      reference in the State Grant Agreements provided to all subgrantees along
      with the grant award.

      The State Administrative Agency did not have written procedures to
      ensure that the property management accountability requirements were
      being enforced and the required 2-year inventory reconciliations were
      being conducted. State Administrative Agency officials told us that
      property management control requirements are provided as a part of the
      accompanying subgrant award documentation. However, the State
      Administrative Agency stated that follow up activities with subgrantees to
      ensure that property management standards were being adhered to were
      not performed. Of the 22 subgrantees we visited, only 8 had property
      management records that complied with federal property management
      requirements. The remaining subgrantees had various shortcomings,
      which included the following examples:

                   Table 2: Property Management Shortcomings Noted
           # of
                                       Description of Example
        Subgrantees
            13      Property management records did not contain all the required
                    data elements required by Code of Federal Regulations Title 44
                    §13.32 (e.g., ownership, location, disposal, or serial numbers).
            3       Required 2-year inventory reconciliations were not performed.
              1         Property management records were not maintained for items
                        purchased (e.g., $390,000 of radios that were purchased over a
                        year ago) Auditor’s note: We did verify the existence of the
                        radios at the subgrantee.
              1         Equipment inventory files maintained informally (i.e., in large
                        envelope).
              1         Unable to locate an item purchased with grant funds (i.e., a
                        7 kilowatt electric generator that cost about $20,200).
                        Subsequent to our field work, the subgrantee located the
                        generator.




   The State of Minnesota’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                      Page 14
 

      The lack of written policies and procedures, no follow up with subgrantees
      to verify that assets were recorded and protected, and inadequate staffing
      and funding contributed to the noncompliance with federal property
      management requirements.

      Recommendations
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Minnesota Department of Public Safety
               and its Division of Homeland Security and Emergency
               Management to:

               Recommendation #7: Establish procedures to ensure that
               subgrantees are complying with property management
               requirements.

               Recommendation #8: Direct subgrantees to establish and
               maintain property management records in accordance with federal
               requirements for equipment purchased with federal funds,
               inventory all property purchased with grant funds to meet the
               federal 2-year reconciliation requirement.

      Management Comments and Auditors’ Analysis
               FEMA officials concurred with recommendations 7 and 8. The
               officials stated that the State Administrative Agency is required to
               provide a plan for managing grant funded property and equipment
               to their FEMA Grant Program Directorate Program Analyst within
               90 days of the receipt of the final report. FEMA requested that
               these recommendations be considered resolved but open pending
               implementation of the stated corrective action.

               State of Minnesota officials agreed with recommendations 7 and 8.
               The officials said a document was being developed that will
               include a set of procedures to ensure subgrantees comply with
               property management requirements. Once completed, these
               procedures will be included in the monitoring and policy document
               that is being developed (see Management Comments for
               recommendations 4 through 6 above). The officials said that the
               Grant Staff will share federal property management requirements
               with all subgrantees. The estimated completion date is
               December 1, 2011.

               If properly implemented, the actions identified in FEMA and the
               State’s responses will resolve the condition identified during the

   The State of Minnesota’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 15
                audit. The recommendations are considered resolved and will
                remain open until such time that the State has implemented the
                corrective action.

Grant Expenditure Reviews
       The Minnesota State Administrative Agency did not have written policies
       and procedures to guide its financial review section in examining
       subgrantees requests for reimbursement. In addition, documentation was
       not always available to support approvals of subgrantee reimbursement
       requests. As a result, the State Administrative Agency could not ensure
       that its reviews of reimbursement requests provided consistent validations
       that grant expenditure were allowable, allocable, authorized, and in
       accordance with grant requirements.

       Code of Federal Regulations Title 44 §13.20, Standards for financial
       management systems and the Department of Homeland Security Financial
       Guide require that grantees and subgrantees maintain an accounting
       system together with adequate internal controls to assure grant
       expenditures are allowable, allocable, authorized, and consistent with
       federal, State, and grant requirements. Documentation of procedures is an
       important internal control technique to ensure consistency in the outcomes
       of the process.

       Minnesota State Administrative Agency officials said that to be approved,
       reimbursement requests must include supporting invoices and related
       documents that authenticated the transaction. However, we found two
       instances where approved reimbursement requests did not include invoices
       for: (1) a $392,000 purchase of handheld digital portable radios, and
       (2) a $64,000 purchase of a wireless X-ray system. While invoices were
       subsequently obtained from the subgrantees, reimbursements should not
       have been approved by the State Administrative Agency without the
       appropriate documentation to support the purchase and receipt of the
       equipment items.

       State Administrative Agency officials stated they have not taken the time
       to generate written policies and procedures. Without written policies and
       procedures, the State of Minnesota was not providing sufficient
       management oversight to ensure that grant funds were spent in compliance
       with federal regulations. In addition, by paying requests for
       reimbursements without supporting documentation, the State could not
       ensure that its reviews of reimbursement requests provided consistent
       validation that grant expenditure were allowable, allocable, and authorized
       in accordance with grant requirements.


    The State of Minnesota’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                       Page 16
       Recommendations

                We recommend that the Assistant Administrator, Grant Programs
                Directorate, require the Minnesota Department of Public Safety
                and its Division of Homeland Security and Emergency
                Management to:

                Recommendation #9: Prepare written policies and procedures for
                the review and approval of subgrantee reimbursement requests.

                Recommendation #10: Implement the written policies and
                procedures and ensure that subgrantee reimbursement requests are
                supported by appropriate documentation.

       Management Comments and Auditors’ Analysis
                FEMA officials concurred with recommendations 9 and 10. The
                officials stated that the State Administrative Agency is required to
                provide supplemental subgrantee grant guidance describing how
                subgrantee reimbursement requests are processed, evaluated, and
                approved to their FEMA Grants Program Directorate Program
                Analyst within 90 days of the receipt of the response to the final
                report. FEMA requested that recommendation 9 be closed, and
                that recommendation 10 be considered resolved and open pending
                implementation of the stated corrective action.

                State of Minnesota officials agreed with recommendations 9 and
                10. The officials said that draft policies and procedures for
                subgrantee reimbursement requests have been prepared and will be
                finalized by November 16, 2011.

                If properly implemented, the corrective actions proposed by
                FEMA and the State will resolve the condition identified during
                the audit. The recommendations are considered resolved and will
                remain open until such time that corrective actions have been
                implemented.

Financial Status and Progress Reporting
       Subgrantees did not submit the State’s required quarterly financial status
       reports in a timely manner. In addition, the subgrantees did not always
       submit State required quarterly progress reports. As a result, the State did
       not know the current status of subgrantees’ financial activities, the
       subgrantees progress in improving preparedness and response capabilities,


    The State of Minnesota’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                       Page 17
      or any problems being experienced that could delay subgrantee
      improvement projects.

      Code of Federal Regulations Title 44 §13.20, Standards for financial
      management systems, and the Department of Homeland Security Financial
      Guide, require that all grantees maintain records which permit preparation
      of reports and adequately identify the source and application of funds
      provided for financially assisted activities. These records must contain
      information pertaining to grants or subawards and authorizations,
      obligations, unobligated balances, assets, liabilities, outlays or
      expenditures, or income. The records must be sufficient to permit
      preparation of reports required by these regulations and the statutes
      authorizing the grants.

      The Minnesota State Administrative Agency required that subgrantees
      submit a financial report along with copies of itemized invoices for actual
      costs incurred at least quarterly, but not more than monthly, and within
      30 days of the period covered by the invoice. These quarterly financial
      reports are designed to provide the State with financial information about
      the activities (expenditures and unliquidated obligations) as reflected in
      the subgrantees’ official accounting records.

      In addition to the financial reports, the State Administrative Agency
      required subgrantees to submit quarterly progress reports. The progress
      report includes a section to identify any problems that may be causing, or
      would cause, the project to be delayed.

      The State Administrative Agency relied on the financial and progress
      information provided by the subgrantees to generate the statewide
      financial status documents and make a determination of the progress being
      made by the subgrantees in using grant funds. However, as shown in the
      following table, five financial status reports exceeded the quarterly
      requirement, with one report covering 28 months.

              Table 3: Range of Months for Filing Financial Status Reports
                                                                                           # of
         Subgrantee          Award         Amount            Reported Period
                                                                                          Months
      Subgrantee #1         FY 2008          $150,000       09/01/08 to 12/31/10            28

      Subgrantee #2         FY 2007        $1,692,000       10/01/08 to 06/30/10            21
      Subgrantee #3         FY 2007           $31,415       09/01/08 to 12/03/09            15

      Subgrantee #4         FY 2007          $434,500        07/01/10 to 12/31/10           6
      Subgrantee #5         FY 2009           $53,050        07/12/10 to 01/07/11           5


   The State of Minnesota’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                      Page 18
 

      In addition, 5 of the 22 subgrantees did not submit progress reports from
      October 1, 2007 through June 30, 2010. For example, one subgrantee
      received $1.69 million of grant funds in FY 2007 and had spent
      $1.687 million by June 30, 2010 while not providing the State
      Administrative Agency any progress reports. Another subgrantee received
      grant funds of $590,934 in FY 2007, expended all the grant funds by June
      30, 2010, but never submitted a progress report for the entire grant
      performance period.

      Subgrantee progress reports are a key factor in monitoring subgrantee
      accomplishments. State Administrative Agency officials agreed that, in
      the absence of on-site subgrantee monitoring, the progress reports were
      important sources for the State to obtain the subgrantees’ views on the
      progress being made to enhance preparedness and response capabilities.
      In addition, the State Administrative Agency told us that during Calendar
      Year 2010, it started a process of not approving financial reimbursement
      payments until such time that the Progress Reports were submitted and
      entered into the State Administrative Agency’s automated grants
      management system. The State Administrative Agency believed this
      process would speed up the submission of the financial reports by the
      subgrantees.

      Also, State Administrative Agency’s automated grants management
      system could not generate reports to track the submission of required
      financial status and progress reports. The State Administrative Agency
      officials said that more attention is now being given to subgrantee
      submissions of financial status and progress reports. In addition, the
      officials said that a new automated grants management system was being
      developed that would include the ability to produce reports and track
      subgrantee reporting.

      Subgrantee non-compliance with the State Administrative Agency’s
      quarterly reporting requirements resulted in the State not receiving timely
      information on the subgrantees’ financial activities. Without progress
      reporting, coupled with insufficient subgrantee monitoring, the State
      Administrative Agency was not aware of the subgrantees’ progress being
      made to improve preparedness and response capabilities. In addition, the
      State Administrative Agency was not aware of any problems being
      experienced by the subgrantees that could delay improvement projects.




   The State of Minnesota’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                      Page 19 

      Recommendations

               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Minnesota Department of Public Safety
               and its Division of Homeland Security and Emergency
               Management to:

               Recommendation #11: Develop and implement procedures to
               ensure that subgrantees submit financial status and progress reports
               in a timely manner.

               Recommendation #12: For those subgrantees that did not submit
               financial status reports, develop a mechanism to identify
               noncompliance and take appropriate action to ensure financial
               status reports are submitted.

      Management Comments and Auditors’ Analysis
               FEMA officials concurred with recommendations 11 and 12. The
               officials stated that the State Administrative Agency will be
               required to develop subgrantee financial and progress reporting
               processes that ensure timely submissions of the required reports
               within 90 days of the receipt of the final report. Within 180 days,
               the State will be required to submit documentation describing the
               State’s subgrantee financial reporting procedures. FEMA
               requested that these two recommendations be resolved and open
               pending implementation of the stated corrective actions.

               State of Minnesota officials also agreed with recommendations 11
               and 12. The officials said that the State has incorporated quarterly
               progress and financial status reports into their new on-line grant
               management system. E-mail notices will be sent to subgrantees
               when quarterly reports are due. The system will generate
               exception reports for those subgrantees who do not file their
               quarterly reports, and notices will be sent out accordingly.

               If properly implemented, the actions identified in FEMA and the
               State’s responses will resolve the condition identified during the
               audit. The recommendations are considered resolved and will
               remain open until such time that corrective actions have been
               implemented.




   The State of Minnesota’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                      Page 20 

Fusion Center Sustainability
       The Minnesota State Administrative Agency does not have a viable
       sustainment plan for its fusion center to ensure continuity of operations
       during funding shortfalls. The State Legislature failed to provide funding
       for the fusion center for the State FY 2009 budget year. Also, the State
       Administrative Agency did not have a commitment of funding from State
       sources for future years because of the State of Minnesota’s financial
       condition. Without continued federal grant funding, the capability may be
       lost and sustaining long term activities of the fusion center may not be
       possible.

       The DHS Grant Program Guidance and Application Kits, as well as the
       Investment Justification Reference Guides for FYs 2007, 2008, and 2009,
       state that grant proposals must clearly describe the long term approach to
       sustaining the capabilities created or enhanced by the investment or why
       the investment will not be sustained beyond the period of performance of
       the grant award. This information would be used by FEMA to evaluate
       the anticipated effectiveness of the proposed investments. The Investment
       Justification Reference Guide added that the proposal should describe
       plans for maintaining the capabilities of the investment, including any
       additional sources of funding to be used, if necessary, and future plans for
       sustaining the investment, if any.

       The State of Minnesota has one fusion center, which focuses on sharing
       information and threat analysis in real time with appropriate stakeholders.
       The fusion center provides weekly bulletins on state, regional, national,
       and international terrorist and criminal activity. The fusion center
       provides access to DHS advisories and information bulletins, FBI threat
       analysis documents, and trend analysis to appropriate agencies on a secure
       network.

       Using FY 2008 Homeland Security Grant Program funds, the State
       Administrative Agency awarded the Fusion Center $352,000 for the grant
       period September 1, 2008 through August 31, 2011. These funds were to
       be used for operation costs and supervision. Funded items included the
       Director’s salary, training, and other related costs to maintain and manage
       the fusion center. Using FY 2009 Homeland Security Grant Program
       funds, the State Administrative Agency awarded the fusion center an
       additional $282,000 to provide for the continuance of operations and
       staffing for the grant period September 1, 2009 through March 31, 2012.

       The fusion center Investment Justifications for FY 2008 and 2009
       included concerns about the sustainment of the fusion center’s capabilities
       in the long run should Homeland Security funding be discontinued or

    The State of Minnesota’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                       Page 21
      severely reduced. Both the FY 2008 and 2009 Investment Justifications
      stated that federal funding continued to be the primary source of
      sustainability for the fusion center. According to the Investment
      Justifications, the growth of the fusion center and its services was valuable
      in the State’s efforts to prevent terrorism. The FY 2008 Investment
      Justification stated that it was incumbent on the State of Minnesota to
      recognize that it has a responsibility to continue to provide information
      and intelligence sharing to protect its citizens.

      The Department of Public Safety, the parent organization of the State
      Administrative Agency, requested funding from the State Legislature in
      2009 to sustain the cost of management staff and intelligence analysts
      following the FY 2008 Homeland Security Grant Program funding period.
      Although the Department included budget funding provisions for the
      fusion center, the State Legislature did not provide any funds to the
      Department that year for the fusion center. The FY 2009 Investment
      Justification added that due to the current status of the State’s fiscal
      problems, there was no defined plan for seeking funding from the State.
      Therefore, the fusion center would need to rely on DHS grant funding for
      sustainability.

      At the conclusion of our field work, the State Administrative Agency had
      not been able to obtain a commitment from the State legislature to fund
      fusion center operations should federal grant funding end or be
      significantly reduced. In addition, State Administrative Agency officials
      said that funding from other fusion center stakeholders that include local
      law enforcement agencies whose own budgets are constrained, would not
      be sufficient to sustain operations.

      Without a plan for sustaining the activities of the fusion center that are
      currently funded with Homeland Security Grant Program funds, the
      capabilities of the fusion center could be significantly impacted if federal
      funding decreases or is eliminated completely. Most significantly, the
      fusion center’s ability to help develop and maintain information sharing
      and intelligence to law enforcement agencies, including information that
      could prevent possible terrorist attacks, could be lost.

      Recommendation
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Minnesota Department of Public Safety
               and its Division of Homeland Security and Emergency
               Management to:



   The State of Minnesota’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 22
               Recommendation #13: Develop a viable sustainability plan
               identifying the most important capabilities of the fusion center and
               sources of funding to maintain those capabilities in future years.

      Management Comments and Auditors’ Analysis
               FEMA officials concurred with the intent of recommendation 13.
               FEMA acknowledged that developing a sustainment plan would be
               both prudent and valuable to the State and the local jurisdictions
               which have benefited from these grants. However, the officials
               stated that FEMA cannot legally require this recommended action
               and the State of Minnesota is not in violation of Federal
               regulations or grant requirements. According to FEMA, imposing
               this requirement on Minnesota is unreasonable and inequitable,
               since sustainment plans are not a requirement of all grant
               recipients. The issue of long-term sustainment of initiatives is a
               cross-cutting issue that should be discussed at the highest levels of
               DHS, as requiring a State or Urban Area to complete such a task
               has broad policy implications for the Homeland Security Grant
               Program.

               Due to budget constraints at the federal and state levels, this
               unfunded mandate to create such a plan would place undue burden
               on the State. However, FEMA officials said that they will
               recommend that the State examine ways to sustain State Fusion
               Center Operations utilizing the Homeland Security Grant Program
               investment justification process within 90-days of the receipt of the
               final report.

               State of Minnesota officials agreed with recommendation 13. The
               officials said the State is assessing community needs and
               capabilities along with the future scope of the Minnesota Joint
               Analysis Center (Fusion Center). Conversations with DHS and
               public safety officials are occurring and recommendations will be
               provided to the State Governor and Legislature. These
               recommendations will be forwarded to the Governor by December
               2011 and the 2012 legislative session starts January 24, 2012.
               A viable sustainability plan is predicated upon the Governor and
               Legislature approval.

               The corrective actions proposed by FEMA and the State represent
               a good beginning to resolving the condition identified during the
               audit. The recommendation is considered resolved and will remain
               open until the Governor approves a sustainability plan that
               identifies ways to sustain State Fusion Center Operations.

   The State of Minnesota’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 23
        Internal Controls over Financial Operations
                 The State Administrative Agency has not fully documented internal
                 controls or performed risk assessments of the homeland security program.
                 The State’s Office of Legislative Audit reported in March 2009 2, and
                 again in March 2010 3, that the Department of Public Safety had not
                 documented its risk assessment for internal controls over (1) compliance
                 with federal single audit requirements, (2) its monitoring process that
                 assesses the quality of internal controls over compliance with federal
                 single audit requirements, and (3) the quality of internal control
                 performance over time. The 2009 Report also stated that the Department
                 of Public Safety had an increased likelihood of a control deficiency if it
                 did not clearly communicate to all staff its risk, control activity, and
                 monitoring policies and procedures.

                 Code of Federal Regulations Title 2 Part 225 Cost Principles for State,
                 Local and Tribal Governments states that as a fundamental premise
                 “Government units are responsible for the efficient and effective
                 administration of Federal awards through the application of sound
                 management practices.” This Section also states “Governmental units
                 assume responsibility for administering funds in a manner consistent with
                 underlying agreements, program objectives, and the terms and conditions
                 of the Federal award.”

                 Minnesota’s Department of Finance Policy 0102-01, details that each State
                 department head, such as the Commissioner of the Department of Public
                 Safety, has the responsibility to identify, analyze, and manage business
                 risks that impact a department’s ability to maintain financial strength and
                 the overall quality of its products and government services. This policy
                 also requires communication of the internal control policies and
                 procedures that, at a minimum, should include mechanisms for monitoring
                 results and reporting significant control deficiencies to individuals
                 responsible for the process or activity involved, including executive
                 management and those individuals in a position to take corrective action.

                 The State’s Office of Legislative Audit reported in March 2009, that the
                 Department of Public Safety needed to develop a comprehensive internal
                 financial control structure to identify deficiencies, assess the degree of risk
                 of these deficiencies, design control procedures to address significant
                 risks, and monitor whether controls were working as designed and
                 effectively reducing the risks to an acceptable low level. The report

2
  The State’s Office of Legislative Audit Report No. 09-11, dated March 26, 2009, “Department of Public
 

Safety Federal Compliance Audit Year Ended June 30, 2008,” 

3
  The State’s Office of Legislative Audit Report No. 10-04, dated March 4, 2010; “Department of Public
 

Safety Federal Compliance Audit Year Ended June 30, 2009.” 


              The State of Minnesota’s Management of State Homeland Security Program and 

           Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                                 Page 24 

                 concluded that the Department of Public Safety would continue to have
                 noncompliance and weaknesses in internal controls over compliance until
                 it operates within a comprehensive internal control structure. The report
                 recommended that the Department of Public Safety should “…frequently
                 review and clearly document its risks, control activities, and internal
                 control monitoring functions for its key business processes.” In March
                 2010, the Office of Legislative Audit again reported the same finding and
                 conclusion with a similar recommendation as in the prior year report.

                 Another audit by the Office of Legislative Audit had also demonstrated
                 the need for this recommendation, in part, through its identification of
                 issues with the Department of Public Safety’s administration of homeland
                 security funds. Specifically, Office of Legislative Audit reported 4 in
                 March 2008, that the Department of Public Safety had:

                     �	 Erroneously included expenditures in the Homeland Security Grant
                        Program;
                     �	 Insufficient evidence to support some purchases;
                     �	 Did not properly obligate funds to its subgrantees for the
                        Homeland Security Grant Program; and
                     �	 Did not adequately safeguard fixed assets purchased with federal
                        program funds (inventory system did not contain required
                        information).

                 During our audit, we also found internal control weaknesses over financial
                 operations. For example, as reported in an earlier finding, we found
                 insufficient evidence at the time reimbursements were approved to support
                 $456,000 of homeland security purchases. The supporting documentation
                 was found only as a result of auditor inquiry. The need for:

                      �	 an updated strategy,
                      �	 adequate monitoring, and
                      �	 a sustainability plan for the fusion center,

                 are additional examples of financial-related internal control weaknesses.
                 State Administrative Agency officials stated that the Department of Public
                 Safety had not recently analyzed risks or internal controls in their
                 administration of Homeland Security Grant Program funds received
                 during the period covered in the scope of our audit.

                 The State Administrative Agency has not successfully implemented the
                 Office of Legislative Audit’s report recommendation. The Department of

4
 Office of Legislative Audit’s Report No. 08-08, dated March 20, 2008, on “The Department of Public
Safety Federal Program Compliance Year Ended June 30, 2007”

             The State of Minnesota’s Management of State Homeland Security Program and 

          Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                                Page 25 

      Public Safety’s February 25, 2010 response to the Office of Legislative
      Audit’s recommendation stated that the Department of Public Safety had
      created an internal audit unit to perform a risk review of the department’s
      activities and will formally document its risk control activities and internal
      control monitoring functions for federal program requirements once the
      unit is staffed. However, the State Administrative Agency did not
      accomplish either of these tasks because the internal audit unit has not
      been staffed.

      Accordingly, there is an increased risk that the deficiencies identified in
      the audits of the Office of Legislative Audit, and the issues identified
      during our audit, will not be fully addressed and could persist. As a result,
      until the weaknesses in internal controls over financial operations are
      corrected, the State Administrative Agency will continue to be in non­
      compliance with requirements for efficient and effective administration of
      federal awards through the application of sound management practices.

      Recommendations
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Minnesota Department of Public Safety
               and its Division of Homeland Security and Emergency
               Management to:

               Recommendation #14: Implement Office of Legislative Audit’s
               recommendation that the Department of Public Safety documents
               its risks, control activities, and internal control monitoring
               functions for federal program requirements.

               Recommendation #15: Establish a process that documents
               significant control deficiencies and risks that are periodically
               identified, as well as the corrective actions taken to address the
               deficiencies.

      Management Comments and Auditors’ Analysis
               FEMA officials concurred with recommendations 14 and 15. The
               officials stated that FEMA has requested the State Administrative
               Agency to devise a timeline for developing risk management
               processes and a risk management plan that will help document
               needed internal controls that will reduce risk. The State will be
               required to submit a timeline to FEMA within 90 days of the
               receipt of the response to the final report. FEMA requested that
               these recommendations be resolved and open pending
               implementation of the stated corrective actions.

   The State of Minnesota’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 26
               State of Minnesota officials also agreed with recommendations 14
               and 15. The officials said the Department of Public Safety has
               created an Internal Audit Unit and an Internal Audit Director
               position. The positions will be filled as soon as possible. The
               Department of Public Safety will formally document its risks,
               control activities, and internal control monitoring functions for
               federal program requirements once the Internal Audit Unit is
               staffed. The officials said an updated department-wide internal
               control policy was approved on May 6, 2010. The Internal Audit
               Director will work closely with the Minnesota Management and
               Budget Agency and become an active member of the State Internal
               Audit Committee to gain knowledge and develop expertise in
               internal controls. The estimated completion date is December 1,
               2011.

               If properly implemented, the corrective actions proposed by
               FEMA and the State will resolve the condition identified during
               the audit. The recommendations are considered resolved and will
               remain open until such time that corrective actions have been
               implemented.




   The State of Minnesota’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                      Page 27 

Appendix A
Purpose, Scope, and Methodology

                       The objective of this audit was to determine whether the State
                       distributed and spent State Homeland Security Program and Urban
                       Areas Security Initiative grant funds strategically, effectively, and
                       in compliance with laws, regulations, and guidance. The goal of
                       this audit is to identify problems and solutions in order to assist
                       FEMA and the State to improve the nation’s ability to prevent and
                       respond to all hazards on a local as well as a statewide level.

                       The scope of this audit included the plans developed by the State to
                       improve preparedness and all hazards response, the goals set
                       within those plans, the measurement of progress towards the goals,
                       and the assessments of performance improvement that result from
                       this activity. Further, the scope included the assessment of these
                       activities within the context of risk to determine if the State’s plans
                       produced strategic performance improvements related to the
                       highest areas of risk rather than merely producing improvements in
                       a broader sense.

                       Together, the entire Homeland Security Grant Program and its five
                       interrelated grant programs fund a range of preparedness activities,
                       including planning, organization, equipment purchases, training,
                       exercises, and management and administration costs. Because of
                       the interrelationship of these grant programs, all were considered
                       when evaluating the planning cycle and the effectiveness of the
                       overall grant program. However, only State Homeland Security
                       Program and Urban Areas Security Initiative funding, and
                       equipment and programs supported by the grant funding, were
                       reviewed for compliance.

                       In 2006, separate Minneapolis and St. Paul Urban Areas Security
                       Initiatives were merged into a single Urban Areas Security
                       Initiative, which was named the Twin Cities Urban Areas Security
                       Initiative. The separate working groups, comprised of the
                       metropolitan communities and first responders, were joined
                       together to form the Twin Cities Urban Areas Security Initiative
                       working group. The current Twin Cities Urban Areas Security
                       Initiative is made up of 12 members, with only 7 being voting
                       members. All 12 members are part of the working group that
                       identifies specific needs for the Urban Areas Security Initiative.
                       These needs are prioritized and carried forward into each year’s
                       Investment Justifications and grant applications.

                       The Urban Areas Security Initiative working group decided that
                       grant funds awarded will be divided according to the by-laws
                       developed and accepted by all of the Urban Areas Security

           The State of Minnesota’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                              Page 28 

Appendix A
Purpose, Scope, and Methodology

                       Initiative members. These by-laws identify specific percentages of
                       disposition of the grant awards among the Urban Areas Security
                       Initiative members, which are made upon receipt of the Urban
                       Areas Security Initiative grant award from DHS. A State
                       Administrative Agency staff member is the point of contact for the
                       Twin Cities Urban Areas Security Initiative, and this individual
                       maintains all the financial records of grant awards, grant
                       expenditures, grant revisions, grant expenditure changes, and is an
                       ad hoc member of the Urban Areas Security Initiative. This State
                       Administrative Agency staff member was the audit team’s primary
                       source of information for the Twin Cities Urban Areas Security
                       Initiative.

                       In accordance with the audit guide, provided by the DHS Office of
                       Inspector General (OIG), Foxx & Company auditors conducted
                       audit work at the State Administrative Agency and visited 22
                       subgrantees including the Twin Cities Urban Areas Security
                       Initiative. The 22 sites visited received 86.6% of the overall 3-year
                       grant awards, with expenditures representing 50.2% of the dollar
                       value expended. The awards for State Homeland Security Program
                       and Urban Areas Security Initiative funds for FYs 2007 through
                       2009 for the grant recipients visited represented the following
                       percentage of the awards for these years respectively:

                            �   91% of the 2007 State Homeland Security Program grant
                            �   98% of the 2007 Urban Areas Security Initiative grant
                            �   88% of the 2008 State Homeland Security Program grant
                            �   90% of the 2008 Urban Areas Security Initiative grant
                            �   66% of the 2009 State Homeland Security Program grant
                            �   98% of the 2009 Urban Areas Security Initiative grant

                       The subgrantees visited include:

                       State Agencies
                           �	 Department of Agriculture
                           �	 Department of Health
                           �	 Department of Military Affairs
                           �	 Department of Public Safety – Bureau of Criminal Activity
                           �	 Department of Public Safety – Homeland Security and
                              Emergency Management
                           �	 Office of Enterprise Technology




           The State of Minnesota’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                              Page 29 

Appendix A
Purpose, Scope, and Methodology

                       Urban Areas Security Initiative Subgrantees
                          � City of Bloomington
                          � City of Minneapolis
                          � City of St. Paul
                          � Dakota County
                          � Hennepin County
                          � Ramsey County
                          � Washington County

                       Regions
                          � Region 1     --	 Olmsted County
                          � Region 2     --	 St. Louis County
                          � Region 3     --	 Northwest Regional Development Council
                          �	 Region 4    -- West Central Emergency Management
                                            Services
                            �   Region 5 --	 Murray County
                            �   Region 6 --	 Anoka County

                       First Responders
                           � City of St. Cloud
                           � Kanabec County
                           � Metropolitan Emergencies Service Board

                       The Homeland Security Grant Program awards to Minnesota for
                       fiscal years 2007 through 2009 included the following programs
                       and awards:

                                           Homeland Security Grant Program
                                               FYs 2007 through 2009

                         Funded Activity       FY 2007        FY 2008        FY 2009          Total
                       State Homeland
                                            $6,580,000 $12,260,000 $10,985,500             $29,825,500
                       Security Program
                       Urban Areas
                                            $8,460,000 $8,206,000   $8,248,100             $24,914,100
                       Security Initiative
                              Total        $15,040,000 $20,466,000 $19,233,600             $54,739,600
                       Law Enforcement
                                                           Not         Not
                       Terrorism
                                            $4,690,000 Applicable   Applicable              $4,690,000
                       Prevention Program
                       Citizen Corps
                                              $258,136   $259,052    $257,808                 $774,996
                       Program
                       Metropolitan
                       Medical Response
                                              $516,290   $642,442    $642,442               $1,801,174
                       System Program
                           Grand Total     $20,504,426 $21,367,494 $20,133,850             $62,005,770
                       Source: Federal Emergency Management Agency

           The State of Minnesota’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                              Page 30
 

Appendix A
Purpose, Scope, and Methodology

                       At each location, we interviewed responsible officials, reviewed
                       documentation supporting State and subgrantee management of the
                       awarded grant funds (including expenditures for equipment,
                       training, and exercises), and physically inspected some of the
                       equipment procured with the grant funds. In addition, we met with
                       representatives of first responder organizations, such as fire,
                       police, sheriff and health organizations, to discuss the grant
                       process and the benefits the grant funds have brought to their
                       organization and communities.

                       We conducted reviews at FEMA headquarters, State of Minnesota
                       offices, the State Administrative Agency point of contact for the
                       Urban Areas Security Initiative, regional law enforcement
                       organizations, and county subgrantee organizations. At these
                       locations, the audit team conducted interviews with key officials
                       directly involved in the management and administration of the
                       State of Minnesota Homeland Security Grant Program. The team
                       reviewed and analyzed data related to grant management and
                       associated processes identified by the team and discussed with
                       Minnesota State Officials at the beginning of the audit. These key
                       management processes included:

                            �   Threat, capability, and needs assessment;
                            �   Grant application preparation and submission;
                            �   Grant funds allocation;
                            �   Grant expenditure and reporting; and
                            �   Grant monitoring.

                       We conducted the audit between December 2010 and May 2011, in
                       accordance with Government Auditing Standards as prescribed by
                       the Comptroller General of the United States (Yellow Book-2007
                       Revision). Those standards require that we plan and perform the
                       audit to obtain sufficient, appropriate evidence to provide a
                       reasonable basis for our findings and conclusions based on our
                       audit objectives. We believe that the evidence obtained provides a
                       reasonable basis for our findings and conclusions based on our
                       audit objectives.

                       Although this audit included a review of costs claimed, we did not
                       perform a financial audit of those costs. This was a performance
                       audit as defined by Chapter 1 of the Standards, and included a
                       review and report of program activities with a compliance element.
                       Foxx & Company was not engaged to and did not perform a
                       financial statement audit, the objective of which would be to
                       express an opinion on specified elements, accounts, or items.
           The State of Minnesota’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                              Page 31 

Appendix A
Purpose, Scope, and Methodology

                       Accordingly, Foxx & Company was neither required to review, nor
                       express an opinion on, the costs claimed for the grant programs
                       included in the scope of the audit. Had Foxx & Company been
                       required to perform additional procedures, or conducted an audit of
                       the financial statements in accordance with generally accepted
                       auditing standards, other matters might have come to their
                       attention that would have been reported. This report relates only to
                       the programs specified and does not extend to any financial
                       statements of the State of Minnesota.

                       While the audit was being performed and the report prepared under
                       contract, the audit results are being reported by the DHS Office of
                       Inspector General to appropriate Federal Emergency Management
                       Agency and State of Minnesota officials.




           The State of Minnesota’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                              Page 32 

Appendix B
Management Comments to the Draft Report




                                                   OCT     7 2011



        \11 "lOR '\:'\0\ '\1 FOR:         Anne L, Richards
                                          i\:-;sistant inspec10r (jcncrai    j~)r   Audits
                                          Office                 (J-cncral

        FRO"l:                            David J. Kaufman
                                          Direct()!"
                                          Orticc of Policy and Pn}gram             :-\naly~is


        SLBJECl:                          Clunmcnts to 01(; Drah Repurt, The Swte of Afinncsota
                                          J!anagement o(S'tO!C !/()melond Security Program (SHSP) and
                                          Crban ,/fl"cc/s ~)'ccurily Initiurh'cs (LASl) (;nulls ilH'arded during
                                          /;-is('o! Years 2007 through 2009


        Thank you for the {lpportunity 1(1 cOlllllK'nt Oil the dr:.lft report The findings in the report will he
        ust:J to strengthen the effectiveness and efficiency of how we eXCeLlte and measure our
        programs. We rccognJ7C the      111,.'CJ   to cuntinuc to impro"l,'c the   proCl.'~S,   including i.lddrc."sing the
        recommendations raised in this rcpOl1. Our responses to the rccommcndallons arc as foIlO\\'s:

        OIG Recommendation #1: We recommend that the ,\ssist<lnt AdministwtoL               Gr~Ult Programs
        Directorate, require the \linneS\lta Department of Puhlic S,lfcty (111\1 its Division ufFlomcland
        Sc<.:urity and Emergency \Lmat,'.cmcnt tIl formalize;l pohcy imel document procedures 11'r
        penodical1y updating the State StratcfIv based upon current risk, Glpahilitrcs, and ncexIs




                        PrcPJ.fcdnt'';,'' Dlrcdoratc i,."PDt
        guid,mce   r~-.::gafding   ! [',mclw:d     Sen;rit)" Slnltegy




          The State of Minnesota’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                                              Page 33 

Appendix B
Management Comments to the Draft Report




         application cycle. thisn~w guidance will be rdeascd by the end of the YC:lr lOll tor till.: FY 20ll
        HSGP applicaticm cycle. FEMA will require the State to fonna1izc a policy and document
        pnx:t.'durcs for updating the State 5trah.'gy in cmnpJiiU1ce with rc\-is\,.'J guiddincs dc"clo[1l.:d by
        NPD.

         FEMA will continue to strengthen the language of the guidance in regards to this
         rccnmmendatinll and request:' Ihal this recommendation he rcsoJycd and Ilpcn pending
         implementation tlf the stated C(HTectivc action.

         DIG Recommendation #2: \Ve recommend that the Assistant AdministrJtor, Grant Pwgrams
         Directorate, require the Minnesota Department of Public Safety and its Division of Homeland
         Security and Em,,:rgcl1cy Man<tg.clllcnt 10 incorporate goals and objectives in the updated State
         Strategies that arc specitic, mCJsurablc. achievable. results-oriented, and time·limitcd.

        FEMA Response: FEMA concurs wilh the rcconunendation. FEMA approved the stale's HSS
        revision of Junc 2011. Jt is FE\1A's opinion that these revised goals and objectives ure specific.
        measureablc, achievable, results-oriented and time limited, and will serve the state well in its
        homeland security efforts going f'()f\v;Jrd. Based on the resuhmitted HSS, FF.MA concludes that
        this recommendation has sufficiently been addressed and requests that the. action be closed.

        OIG Recommendation #.~: Vv't: recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Minne:-:ota Department of Pubhe Safety and its Division of HOlllcland
        Security and Emergency lvlanagcment to develop p(''ftormance measures and collect and an.alyze
        perfonnanee data from sub b'Tantccs to measure progress towards achieving goals and objectives.

        FEMAResponse: FE1>-tA concurs with the intent of this recommcndatitm, specifically with the
        intent to increase account~lbilily in meeting the goals and ohjectives of the SHSS. Although
        FEMA supports the OIG's recommendation to regularly update the State Strategy, FEMA cannot
        legally r('(Juire the rec.ommelllil.:d action at this time. fEMA NPD i~ rcsponsihle t()r the !-ISS
        guidance, and is revising the guidance and content of the HSS which is anticipal<xi for release by
        thl~ end of the year 2011 for the FY 2012 HSGP Jpplication cycle.


        FE\1A will rCC<lmmend that th~ state develop perfollnance measures and collect and analy-Le
        performance duta trom subgrantccs to IllCaSlln.: progress low~u'ds achieving. goals. FEMA will
        continue t('l strengthen the language of the guidance In regards. to this rec.onunendation <lnd
        n:"!llcsls that thl' w:.;tion be r~o!\'(.xI and open pendJll~ impkm.;nta!11'1l uflh(.: .statl'(.l ..:orn:;.:Uvc
        action.

        OIG Recomrncudutioo #4: W.; reconunend that thl: AssistJ...t"Jt Administrator, Grant Prcgrams
        Directorai;:;_ reqlHrC the 'vlinne~(lta D..~partnl(·n1 ofPuh!ic Safety and its Dt\'isi(lll llfHcllHdand
        Security and Emergency Management to establish a policy and mwntoring procedures I.hat
        inClude the frequency of ,')n-sil{: visi.t~. methNlolog:. for sekcting l'-uhgranices to '. jetit. and a
        proiucoJ fix revie\nng Jioanciul d.nd pertoml<U1cc rdated aCli\.'ities during the Visits.

        ..-E:\1A R('spons(.': rEV1.-\ CO:h.. UfS w!th thIS r~comm(,Hdatioa. Fl:vIA rCCt)gJ1ll.C.'-t the \"alue 01
        hm.-ing dO....'UIDented processes for conducting husln(;'ss activities tD reduce the ri~k of failure and



                                                                                                                          2




          The State of Minnesota’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                                             Page 34 

Appendix B
Management Comments to the Draft Report




         the State has devdopcd rolicics and procedures for managing sub grantee's program
         pcrfcmnance, and fiscal compliance requirements. FEMA has recently recommended the State to
         establish a more cohesi\'e plan that is aggressively used requiring timely on-site \'isits. \Vithin
         90 days of the receipt of the response to the final report via the grantee notification, the SAA is
         required tn ~ubmit this plan tn their tirD Program Analyst. FE\IA request> that this
         rel:ommendation be resolved and open pending implementation of the stated corrective action,

         OIG Recommendation #5: "'il' recommend that the Assistant Adll1inistrator, (irant PWhrrams
         Directorate, require the Minnesota Department of Public Safety and its Di visi()J1 of Homeland
         SecUlity and Emergency Management to develop a r.:hecklist for c'"aluating subgrantee
         c(lmpliance with fedt.'fal grant requirements"

        FE1\'1A Response: FEMA concurs with this recommendation. The Code of Federal Rq,rulatiolls
        (eFR) Title 44, Section 13, provides dctailed instructIOns gnmt rer.:ipients must fnllow v,."hen
        implementing Federal grant funding, Each state is monitored by FEMA to ensure compliance
        \vith grant guidance and all Federal regulations and legislation. Grantees mList comply with all
        Federal requirements per their acceptance of the applicable grant ten11s and conditions, also
        known as special conditions of the grant lCl\vard. \Vithin 90 days of the receipt of the response to
        the final report via the grantee notification, the SAA -will be required to submit to FEMA
        documentation describing the method by which subgrantecs arc infonned about their obligatic'lJls
        to l.:omply with a subrecipient b'rant award. FEMA requests that this recommendation he
        resolved and open pending implementation of the stated corrective action.

        OIG Recommendation #6: We recommend that the Assistant Administrator, Grant Programs
        Directorate. require the \1inncsota Department of Public Safety and its Division ofFlomcland
        Security and Emergency ManagemL,'Ilt to identify criteria and methodology for assessing sub
        grantee efficiency and cflccti,·cncss in accomplishing grant program objectives during
        monitoring visits.

        FEMA Response: FEMA eonr.:urs with the intent of this recommendation. Although FEMA
        supports the intent ofthc OIG's recommendation to enhance the State's ability to measure
        progress while it conducts on sitl: monitoring visits, FEMA cannot require the State to structure
        its monitoring activities to achieve a particular outcome. However, in keeping with the
        recommendation, FEMA wilL within ISO days of the receipt of the respollse to the tinal report
        via the grantee notificatIon letter, request the SAA to review and make improvements to its
        current sub grantee momtonng program F[\1.\ rccol11r:ncnd~ thi:- action be closed

        OIG Rn:omrncndation #7: \\c rccon u'er;d                      the AS<'Ltnt ,'\dmlnistr:'itnr" (;nmt Pn'u.r;Jn!~,
        Dn-.:ctoratc, reqUire the                Deuartmcnt ofPvhlic S,j;{;tyits                        ufI-Iomcland
        ;\ccuritv ;!nd I'r1h:r2enn :\hl1'1;j~'_:c1ncn\ 1::: est:d,1ish f11 )ccdurc~           nut 5ub,':Janiec\
        complying vvith propcn:c" managcll1Cnt fequln;.'ments

        FE\IA Rl".ponS(·: FE\L\ C()nl:urs with this reconnnendulillll. The Code ufFedcralRcgulatwlls
        (eFR) Titie 44 ~! 3,32 (d), AfoJwg;c!r!t:nt requirement,', staks the minimum requirements i()r
        m;""'gll1g egulp1rl"·'H ,U                                           ['U,m ; utds. t'iidt slat;' IS
        ml'11.ltmcd hy FE\!!A                                                          rcquin.;rnenrs




          The State of Minnesota’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                                            Page 35 

Appendix B
Management Comments to the Draft Report




        within 44 CFR. Grantees must comply with these standards in accurdancc WIth the applicable
        grant temlS, conditions and assurances. \Vit11in 90 days of the receipt offhc response to the final
        rqx)rt via the grantee notIfication, the SA/\ is required to provide a plan It)r managing grant
        funded pftlperty and equipment to their GPD Program Analyst FEMA requests that tbis
        recommendation he resoh·cd and open pending impJcmcntati(m of the stated com:ctivc action.

        OIG Recommendation #8:\\'c recommend that the Assist:.mt Administrator. Grant Programs
        Directorate, require the Minnesota Department of Public Safety and its Division of Homcland
        Security and Emergency Management to direct subgrantees to establish and maintain property
        management records in al.:cordance with federal requirements for equipment purchased with
        federal funds, inventory all pwpcl1y purchased with grant funds, and periodically inspect
        equipment to meet the federal 2-ycar reconciliation rcquirl.:ment.

        FE:\tA Response: FEMA concurs with this recommendution. The eFR Title 44 § 13,J2 (d).
        Management requirements, states the minimum requirements for managing equipment and
        replacement equipment purchased \vith grant funds. Each state is monitored by' FEMA to ensure
        compliance with the property manag(''111cnt requirements cited \vithin 44 CFR. Grantees must
        comply ,,,,ith these standards in accordance with thc applicable gr::ll1t te1111."_ conditions and
        assurances. Within 90 days of the receipt of the response to the tinal report via the grantee
        notification, the SAA is required to provide a plan for managing grant funded property and
        equipment to their GPD Probrram Analyst. FEMA requests that this recommendation be resolved
        and open pending implementation of the stated corrective action.

        DIG Recommendation #9: We recommend that the Assistant Administrator, Grant Programs
        Directorate_ require the Minnesota DcpaJ1ment of Public Safety and its Division of Homdand
        Security and Emergency Management to prepare written policies and procedure~ for the review
        and approval of sub grantee reimbursement requests.

        FEMA Response: FEMA concurs with thi,<; rCCOmlllt11dmion. FE\1A acknowledges the need
        for consistency in revie\',,' of all grant funded local, regional and state projects. V/ithin 90 days of
        the receipt of the response to the tinal report via the grantee notifil'ation letter, the SAA will be
        required to provide suppkmental subgrantec grant guidancc describing how sub grantee
        reimbursement requests are processed and approved FEMA requests that this recommendation
        be closed.

        OIGRccolIUllcndutioIl # 10: We recommend that the ,-\s:;,i\t~lnt AdrninistnltoL Crrant PmgranJ:';
        Directorate, r(~quirc the :\iinnesota Departmi;~nt of Public Safety and   Division ,jf Homeland
        S~x:urit)- .mel FmcrgerK} \'lnrugt:rncnt    irnp1cmcnt      ,\-'Tinen      ;md pruccdurcC' dnd
        ensure        subgra.ntee rcimhuI~;emenl requests arc :;,upportcd by arpwpnate documentatIon.

        l"E:\L\ Rt'spons('; FE\lA con,~'.urs tv:th thls C;;C0111lnt:ndauun. FE\rLi\ ackno\vk-dges the need
        f(11" consi::;tcne-y in review of all rrrants hmded.           region;:! and stateprc'1ects. FEMA c'onC.UfS
        \\'ith the intent of the n:nll!unendation as a be:'t practice \"11h the ullJerstanding lhat the :;,tate lS
        already compliant \virh!ts H.-1wrting requirements cited within theFET\-1.A grant program
        gU1\LHICf p;\ckag('s. V/;lh1ll             Ur th~,: t'c(:~';pt               II,) tIlc f: IW) ICpiJrl     th('
        grwltec                                                                                         l:K'\V subgrall(r;c




          The State of Minnesota’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                                             Page 36 

Appendix B
Management Comments to the Draft Report




         reimbursement n:qLlCst~ Jrc evaluated and pro~esscd to their GPD Program Analyst. FEMA
         requests that thj,~ recommendation be resolved and open pending irnplcmcntatinll of the stated
         C01Tcctivc acli(Jl1.

         OIGRccommcndMion #11: We recommend that the Assistant Administrator, Grant Programs
         Directorate, require the Minnesota Dl1'artmcnt of Public Safety and its Division ofHomcland
         Security and Emergen(y Management to den.-Iop and implement procedures to L'11SUrC tll.at
         suhgrantL'Cs subm.it financial status and progr~ss reports in a timely manner.

         FEMA Response: FEMA concurs with this recommendation. FEMA acknowledges that the
         State Administr.:ltive Agency (SAA) for the State of\ttinncsota must ensure that sub grantees
         submit financIal ~Uld progress reports ill a timdy manner. Within 90 days of the receipt of the:
         response to the final report via the grantee nfltification. the SAA will be required to de-:c1op sub
         grantee tlnancial and prugr~s reportmg processes to ensure that tundy submissions of the
         reports occur. FEMA requests lhat this recommendation be resolved and open pending
         impleme1ltation of the stated cOITccti\-e actions.

        Recommendation #12: For those subgrantccs thM did nol submit financial status reports,
        develop a mechanism to identify non-compliance and take appropriate action to ensure tinanciaJ
        status reports are submitted.

        FEMA Response: FEMA concurs with the OTG rccommt.'11dation. Within 180 days of the
        receipt of the .rcs~X)llSC to the final report via the grantee notificatioll 1ctt<.."(, rhe SAA will be
        required to submit documentation desl,.Tibing the State's subgrantee financial reporting
        procedurl,.'S. FEMA requests thaI this rccomlllcmhltion be resolved and open pending
        implementation (If the stated corrective actions.

        OIG Recommendation #13: \Ve recommend that the Assistant Administrator, Grant Programs
        Directorate. require the Minnesota Department of Public Safety and it~ Division of Homeland
        Security and Emergency Management to develop a viable sustainability plan identif)'ing the most
        important capabilities flfthe fusion center and sources of funding 10 maintain thllse capabilities
        in future years

        .FE'\lA Response: fE\I1\ c-om.:urs with the intent of the recommendation. Whih: FEMA
        acknowledges that developing a sustainment plan would be both prudent <Hld valuable to the
        StalL' and the loc,tl Jun')dlcti~)Jl~ which h::l\f~ bl'nd"iHcd from tllt:s\: graJlt funds, we also
        acknO\v1edge thal there is no requircrn~:nt 'f()r Ihem tn do so FEMA canont legary require the
        rcc'.)mmt;~ndcd 'h.:t\(ln,


        MitlJ1cwtJ i<; 11<'( ir, vi0bi iflO qf rC1:,'-ulJn()n~ 111" grunt rcquir('rr;cnt~ by 110t h~1vlng ;] -"u~t<!i:rrn('n1
        plan. bnpt)sillg this requirement on Miul1CSOtillS unrcasonubie and mequll..thle, :S1llce su:<talwllellt
        pIJ~" are n~--,t a requirement of a11 g:rant recirlcnts. Till.' issue '..1flf'ng-tenn :-;lJslainment of
        initiatives IS a cross-cutting issue that should he disl..:ussed aT. the highest 1~\"eJs of DHS, as
        requiring a State (Jr Urball. ArcJ to complete such a !..Jsk r..as hroad policy implications for the
        H<.mlCland Secunl)- Grdnt Progum. Due to nudget Cf)nstraints 31. tIlt' fooeral anu s~ate levds, thIS
        unfunded mandat~ to create such a pIa11 would place undue burden on the State.




          The State of Minnesota’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                                             Page 37 

Appendix B
Management Comments to the Draft Report




        FEMA suggests the following corrective action:

        \Vitbin 90 days of the receipt of the final report, PGD will recommend that the SAA examine
        ways to sustain State Fusion CI.-'f1tcr opl."fations utilizing the HSGP investment justification
        process. FEMA believes this satisfies me inlt:nt of the recommendation and requests that this
        recommendation he resolved <lnd c1osi..xL

        OIG Recommendation #14: We rewmmend that the Assistant Administrator, Grant Programs
        Directorate, require the Minnesota Department of Public Safety and its Di\;sion of Hom(;,'land
        Security and Emergency Management to implement Office of Legislative Audit's
        recommendation that the Depanmcnt of Publil'. Safety document its risks, control activities, and
        internal control monito.ring ti..mctions for federal program requirements.

        FEMA Response: FEMA concurs with this recotlll1lendation. FEMA recognizes the value of
        having processes in place t('l reduce risk dllring the conduct of daily business activities. FEMA
        requests that the SAA devise a timelinc for developing risk management processes. W,ititin 90
        days ofthe receipt of the. response to the tinal report via the grantee notification Ietter~ the SAA
        is required to submit to FEMA n thneline the SAA ,,,,ill follow to develop a risk management
        plan that supports the internal cOlltrols and monitoring functions of the State. FEMA requests
        that this recommendation be rc~olved and open pending implcmt."J1tation of the stated corrective
        aCTIon.

        OIG Recommendation #15: We recommend that the Assistant Administrator, Grant Programs
        Directorate. require the Minnesottl Department ofPuhlic Safety and its Division of Homeland
        Security and Emergency Management to establish a process that docwnellts signiticant control
        deficiencies and risks 1hal arc periodically identified, as well as the corrt'(:tive
                                                                                     ..      actions taken to
        address the dc.ficiencics.

        F.EMA Response: fEM!\ concurs with this recommendation. FEMA recognizes the value of
        having documented processes for conducting busincss activities to reduce risk. FEMA will
        request that the SAA dcvdop a (imcline to generate a risk management plan that wilJ belp
        dcx.llment needed internal controls that will reduce risk. Within 90 days ofthe receipt of the
        response to the tinal report via the grantee notification letwT. the SAA will be required to submit
        a tirneline to FEMA. FEMA requests that this recommendation be resolved and open IX--nding
        impidlicnlation of the :'lJlcd .,;crrccti'\'c ~ction.

        \Yc thank YO\l f(lr the opportunity to rt;:view <1:11 update om commt..11~ to your rt~commendatjons
        contained in your draft report. Should you have further questions rc:gardiug our respollit; pIe-else
        do not hesitate to call fE\1A '!' Chief Audit Liaison. Brad Shetka. Jl 202~6.ffi..l J08.




                                                                                                                6




          The State of Minnesota’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                                       Page 38 

Appendix B
Management Comments to the Draft Report




                 MINNESOTA DEPARTMENT OF PUBLIC SAFETY


                        Homeland Security and Emergency Management
                        444 Cedar Street· Suile 223· Saint Paul, Minnesota 55101-6223
                        Phone: 651-201-7400' Fax: 651-296-0459' rry: 651-282-6555
                        11Up:ilhsem.dps.mn,go\




       Alcohol          Date 09-13-11
    and Gambling
     Enforcement        Martin W. O'Neilt
      Bureau of         Foxx & Company
      Criminal          700 Goodall Complex
    Apprehension
                        324 West Ninth Street
        Driver          Cincinnati, OB 45202
     and Vehicle
      Services

     Emergency          Dear Mr. O'Neill:
   Communication
      Networks
                        We were provided a copyofthe draft audit repclli oftl1o Homeland Security Program and
      Homeland
     Security and       Urban Area Security Initiative Grants f()J' Fiscal Years 2007 through 2009. Thank yOll t()f the
     Emergency          opportunity to go over the recommendations at the exit conference. It win be very helpful to
     Management
                        our managcmcnt of Homeland Security Grants in the future. This is ollr written response to
      Minnesota         the recommendations presented in the draft report.
     State Patrol
       Office of       Recommendalions
   Communications

       Office of        We [Foxx & Company] recommend that the Assistant Administrator. Grant Programs
   Justice Programs     Directorate, require the Minnesota Department of Public Safety and its Division ofHomeland
       Office of
                        Security and Emcrgt'llcy Management to:
    Pipeline Safely

       Office of
                        Recommendation #1:· rormalize a policy and document procedures for periodically updating
    Traffic Safety      the State Strategy based upon cmrcnt risk, capabilities,   ~l1ld   nccdsasscssmcnts.
      Stale Fire
       Marsha!          Miltlle.\·ofa Response #1:

                        MN HSEM will amcnd its currcntstate homeland security strategy (dated June 2011) to
                        include a policy statement in Section I adopting a two-year planning cycle for reviewing and
                        revising the strategy. After validating the organization's mission, vision, and values. wc will
                        conduct a thorough situational analysis that looks at strengths, weaknesses, opportunities, and
                        challenges/threats. We will usc the Threat and Hazan.lldcntification and Risk Assessment
                        (THIRA) methodology to help us understand the risks we face, facilitate effOits to identify
                        capability and resource gaps, [OCllS capability improvements, ;Uld drive actions to manage
                        those risks.

                        Estimated Completion Date
                        December 31. 2011




                 The State of Minnesota’s Management of State Homeland Security Program and 

              Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                                              Page 39 

Appendix B
Management Comments to the Draft Report




         Recommendation #2: Incorporate goals and objectives in the updated State Striltegies that are specific,
         measurable, achievable, results-oriented, and time-limited.

         Minnesota Response #2:

         As part of the st.rategic plan update described in response to recommendation # I. HSEM will develop
         specific, measurable, achievable. result-oriented. and time-limited (SMART) goals to close our
         capability gaps and achieve our strategic cnd state(s). Nested under each of those strategic goals, will
         be SMART objectives that must be achieved in order to accomplish those higher goals. After that, we
         will develop action plans/implementation steps necessary to achieve the SUpPol1ing objectives. The
         action plans are critical to deploying the strategic plan.

         Estimated Completion Date
         December 31,2011

         Recommemlation #3: Develop performance meflsures and conect and analyze performance data from
         sub grantees to measure progress towards achieving goals and objectives.

         Minnesota Response #3:

         The final step in the strategic plan update process will be the development of key perfOlmance
         measures and indicators. These measurements \\'ill focus on the accomplishment of actions plans,
         effectiveness of process improvement initiatives, and satisfaction of key success factors in order to
         track our progress towards achieving our strategic goals and objectives. This data will be collected,
         validated, distributed, presented, and reviewed on a qUaJterly basis. We will develop a consistent
         performance measurement scorecard to regularly distribute the metrics to alI stakeholders. Analysis of
         pcrtonnance measures will drive adjustments to opemtiol1s and future strateRY changes.

         Estimated Completion Date
         December 3 1.20 J 1

         RccommcmlatiOiI #4: Establish a policy and monitoring procedures that include the frequency of on­
         site visits, methodology for selecting sub grantees to visit, and a protocol for reviewing financial and
         perfonnance related activities during the visits.

         Minne.fottl Response #4:

         The department created a Grant JVlonitor position, which was filled in the spring of2011, The Grant
         Monitor is currently working all cstabli:,;1Jing a policy and set of procedures to guide the m()J1itoring
         process, Once established, they will be incorporated into a written document that will provide
         guidelines for the monitoring of all state administered Homeland Security Grant Program grants. This
         document witl include a policy and process for deicnniningthe frequency and recipients of on-site
         visits, and a protocol for reviewing financial and perfi:)Onance related activities during the visits,

         Estimated Completion Date
         December 1. 2011

         Recommendation #5: Develop a checklist for evaluating sub grantee compliance with federal grant
         requirements.



                                                              2




          The State of Minnesota’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                                          Page 40 

Appendix B
Management Comments to the Draft Report




         Minnesota Response #.'i:

         The Grant Monitor is cunently working on developing a checklist that will be used to ensure that sub­
         gnliltees arc administering their Homeland Sc<:urity Grant Program grants in a<:con.lan<:t:: \vith all ft:dcml
         requirements. This checklist will be thowugh and detailed, and allow f<lr the state's monitoring to be
         consistent and dear. Once completed, it will be induded as an attachment to the monitoring policy and
         procedure document.

         Estimatcd Complt;tion12atl;.
         December 1, 2011

         Recommendation #6: Identify criteria and methodology for assessing sub grantee efiiciencyand
         effectiveness in accomplishing grant program objectives during monitoring visits.

         Minnesota Response #6:

         The Granl Monitor is ClllTcntly working on estabUshing a clear process for measuring eHlciency and
         effectiveness of sub-grantecs. It is expected that this process will include a thorough comparison of
         projected timelincs and activity to date; goals to outcomes, and open dialogue with sub-grantee grant
         program representatives, Once completed, this criteria and methodology will be included in the
         monitoring policy and procedure document.

         I::!>Hmi!-.t~_Q._l:::.9J!U~Jction Date
         December 1, 2011

         Recommendation #7: Establish procedures to ensure that sub grantees are complying ","ith property
         management requirements.

         Minne.fOta Response #7:

         The Grant Monitor is currently working on fonnulating a set of procedures to ensure that sub-grantees
         are in compliance with property management requirements. Once completed, it will be included in the
         monitoring policy and procedure document and used to measure the compliance of sub·grantecs as a
         part of the monitoring process.

         Ji.'i.timat!,iJLCQ!!ll21~tionDate
         December J, 201 1

         Recommendation #8: Direct sub grantees to establish and maintain property management records in
         accordance \vith federal requirements for equipment purchased with fedcral funds. inventory all
         property purchased with grant funds, and periodically inspect equipment to meet the federal2·ycar
         reconciliation requirement.

         Minnesota Response #8:

         The Grant Monitor is currently working on fonnulating a set of procedures to ensure that sub-grantees
         are in compliance with property management requirements. Once completed, it will be included in the
         monitoring policy and procedure document and used to measure the compliance of sub"grantees as a
         part ofthe monitoring process. Additionally, Grant: Staff will share federal property management
         requirements, including the development of propelty management records and completion of property
         inventories and equipment inspections, Vi,ith all subwgrantees.


                                                               3




          The State of Minnesota’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                                            Page 41 

Appendix B
Management Comments to the Draft Report




         Estimated Completion Date
         December 1,201 J

         Rl'commendatiol1 #9: Prepare written p(1Jicies and procedures for the review and approval of sub
         grantee rcimbmsement requests.

         ftfinllesola Re.~7)01Ue #9:

         Draft policy and procedure have becn prepared and will be finaH7ed within 60 days.

         J~stimated
                 Completion Date
         November 16.2011

         Recommendation #10: Implement the \vritten policies and procedures and ensure that sub grantee
         reimbursement requests are 5upporred by appropriate documentation.

         AJinnesola Respon."e #10:

         Draft policy and procedure have been prepared and will be finalized within 60 days .

         .E stimated Completion Date
         November 16,2011

         Recommendation #11: Develop and implement procednres to ensure that sub grantees submlt financial
         status and progress reports in a timely manner.

         Minnesota Response #1 J:

         HSEM has instituted quarterly progress reports and quarterly financial status reports in its on~lil1e grant
         management system, DPS E-Grallts. Each sub-grantee receives a e-mail notice that qum1erly reports
         are due. If a sub-grantee does not file a quarterly progress repmt, then he/she is unable to file a
         quatierly financial status fepott to receive reimbursement tor expenditures. After the due datc, the grant
         manager will produce a report from E-Grants that will indicate which sllb-grantees have not filed
         progress rcports and the grant manager will again generate an e-mailnotificatiOil that the progrc~s
         report and financial status report arc pasto-due. Sub-grantees arc expected to submit financial status
         repOits 011 a qUalterly basis even if no expenditures were incurred in a particular quarter.

         Estimated Completion [)ate
         Completed

         Recommelldatiol1 #12: For those sub grantees that did not submit financial status reports, withhold
         payment for expcnditures until final status report~ are submitted.

         Minnesota Response #12:

         l-ISEM has instituted qUUlterly progress reports and qUa11crly financial status reports in its on-line grant
         management system, DPS E-Grants. Each sub-grantee rcceives a e-mail notice that quarterly reports
         are due. If a sub-grantee does 110t file a quarterly progress repori, then he/she is unable to file a
         quarterly financial status report to receive reimbursement for expenditures. After the due date, the grant
         manager will produce a rCpOt1 from E~Grants that wilJ indicate which sub-grantees have not filed
         progress repOlts and the grant manager will again generatc an c-mail notification that the progress
         repOlt and financial status report are past-due. Sub-grantees are expected to submit financial status
         fCPOlis on a quarterly basis even if no expcndit{lre~ were incun-ed in a partieul'lr qum1er.
                                                              4




          The State of Minnesota’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                                           Page 42 

Appendix B
Management Comments to the Draft Report




         Estimated Complelio.nJ2nJ~
         Completed

         Reconunetulation #13: Develop a viable sustainahility phm identifying the most important capabilities
         of the fusion center and sources of funding to maintain those capabilities in future years.

         Miunesota Response #13:

         The state of Minnesota is in the process of assessing the needs of the communities and assessing the
         capabilities and future scope of tile Minnesota Joint Analysis Center (MNJAC). We are entering into
         conversations with the Deputy Under,secrdmy for Tntelligcllcc and Analysis of the Depm1ment of
         Homeland Security (DHS) and a number of public safety officials to provide information regarding the
         DHS perspective as well as funding and future considerations. \\le hope to use this meeting as a
         springboard toward a larger discussion on what the future Minnesota Fusion Center should encompass.

         From these conversations" the Department ofPublil: Safely whicll is the parent organization of
         Homeland Security and Emergency Management (the SAA) will develop a recommendation for the
         Governor/Legislature. This will be the hasis for a MNJAC susiainability plan.

         The stakeholder meeting will be conducted in October 20 11. The recommendation will be fonvarded to
         the Governor's office by December, 2011. The 2012 legislative session begins January 24, 2012.

         Recommendation #14: Implement Office of Legislative Audit's recommendation that the Department
         of Public Safety document its risks, control activities, and internal control monitoring functions for
         federal program re.quirClllents.

         Jrfinnesota Resplmse #.14:

         The depm1ment has created an Internal Audit Unit and an Internal Auditor Director position, Our
         agency has attempted to filt the position several times, without SllCCCSS. The depm1ment is in the
         process of reviewing a new set of applications and plans on tilling this position as soon as possible. In
         addition, the Department of Public Safety leadership met with the Internal Control and Accountability
         Director and an Internal Control Specialist from the Minnesota t\"1anagcment and Budget Agenc.y
         (t\'lMB) on February 16.2011. The purpose oftlle meeting was to review risk assessment training
         infonnation compiled by ~IIMB to assist DPS with future internal control devclopnlent and
         implementation. The department will more formally document its risks. control activities, and internal
         control monitoring functions for Jederal program requirements once the Internal Audit Unit is staffed.
         An updated Department \Vide Internal Controls policy was approved on 516/2010.

         Estimated completion Dat«
         November 1, 2011

         Recommendation #15: Establish a process that documents significant control deficiencies and risks
         that are periodically identified, as weB as the correctivc actions taken to address the deficiencies.

         Minlle,sol" Response #15:

         The department is in the process of trying to fill the Internal Audit Director position. Once this is
         accomplished, the Intemal Audit Director will work with the DPS Alldit Committee, and he resrlOn",ihlc
         for estahlishing a process to document, monitor and create corrective action plans for significant control
         deficiencies.

                                                               5




          The State of Minnesota’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                                           Page 43 

Appendix B
Management Comments to the Draft Report




         Also, the Intel'l1al Audit Director will work closely with Minnesota Management and Budget (MMB),
         and become an active member ohlle state Internal Audit Committee to gain knowledge and develop
         expertise in internal controls.

         Estimated c~oI]lliJetion"p..J!t~
         December 1, 2011


         If yon have any further questions or concerns plea.'ie feel free to contact Jon Hnspek @ 651-201 w7454.


         Sincerely,
          ,,I            ,...
         -)/ II (~ ~
        i> yt':V LL {UJl
         Kris!Eide
         Director
         Homeland Security & Emergency Management




                                                             6




          The State of Minnesota’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                                         Page 44 

Appendix C
Homeland Security Grant Program Background

                      The Homeland Security Grant Program provides federal funding to
                      help state and local agencies enhance their capabilities to prevent,
                      protect against, respond to, and recover from terrorist attacks,
                      major disasters, and other emergencies. The Homeland Security
                      Grant Program encompasses several interrelated federal grant
                      programs that together fund a range of preparedness activities,
                      including planning, organization, equipment purchase, training,
                      and exercises, as well as management and administration costs.
                      Programs include:

                           �	 State Homeland Security Program provides financial
                              assistance directly to each of the states and territories to
                              prevent, respond to, and recover from acts of terrorism and
                              other catastrophic events. The program supports the
                              implementation of the State Homeland Security Strategy to
                              address the identified planning, equipment, training, and
                              exercise needs.

                           �	 Urban Areas Security Initiative provides financial
                              assistance to address the unique planning, equipment,
                              training, and exercise needs of high risk urban areas, and to
                              assist in building an enhanced and sustainable capacity to
                              prevent, respond to, and recover from threats or acts of
                              terrorism and other disasters. Allowable costs for the urban
                              areas are consistent with the State Homeland Security
                              Program. Funding is expended based on the Urban Area
                              Homeland Security Strategies.

                      In addition, the Homeland Security Grant Program includes other
                      interrelated grant programs with similar purposes. Depending on
                      the fiscal year these include:

                           �	 Metropolitan Medical Response System
                           �	 Citizen Corps Program
                           �	 Law Enforcement Terrorism Prevention Program
 

                              (through FY 2007) 





          The State of Minnesota’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                             Page 45 

Appendix D
Minnesota State Administrative Agency Organization


                 Minnesota Homeland Security and Emergency Management
                                         2011
                                                Director
                                                 HSEM
                                        (Executive Management
                                          Strategic Direction)


                                             Deputy Director
                                            (Daily Operations)



   Administration and                  Response and Homeland                         Recovery, Mitigation
 Grants Branch Director                Security Branch Director                        Branch Director

                           Preparedness                             Preparedness
                          Branch Director                          Branch Director

    Budget Financial 
                          Fusion Center 
                           Disaster Programs 

     Management
 
                          Liaison Infrastructure 
                      Public Assistance 

         Office
 
                                Protection
 
                               Individual
 

     Management
 
                            Operations State 
                              Assistance
 

     Grants Admin 
                           Response Assets 
                               Recovery
 

        Support
 
                            State Emergency 
                              Coordination
 

      Purchasing
 
                          Operations Center 
                          Hazard Mitigation
 

       Contracts
 
                               Logistics
 

   Homeland Security 

    Grant Programs          All-Hazards                                    Regional
      Urban Area             Planning                                    Coordinators
    Security Initiative     Radiological                                  Emergency
                            Emergency                                    Planning and
                           Preparedness                                   Community
                            Continuity of                              Right-of-Way Act
                            Operations
                           School Safety

                 Source: Minnesota Division of Homeland Security and Emergency Management




           The State of Minnesota’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                                  Page 46 

Appendix E
Report Distribution


                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretariat
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs

                       Federal Emergency Management Agency

                       Administrator
                       Assistant Administrator, Grant Programs Directorate
                       Federal Emergency Management Agency Audit Liaison
                       Grant Programs Directorate Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




           The State of Minnesota’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009
 


                                              Page 47
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, e-mail your request to our
OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov, or visit our OIG
websites at www.dhs.gov/oig or www.oig.dhs.gov.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
